HHS/OIG, Audit -"Review of Collected Aid to Families with Dependent Children Recoveries in Connecticut,"(A-01-01-02509)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Collected Aid to Families with Dependent Children Recoveries in Connecticut," (A-01-01-02509)
July 5, 2002
Complete
Text of Report is available in PDF format (526 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
There are no Federal requirements for States to pursue recovery of Aid to Families With Dependent Children (AFDC) assistance
correctly paid to recipients. However, some States, including Connecticut, have instituted a requirement that any recipient
who subsequently acquired financial resources must use those resources to repay the amount of AFDC assistance received.  This
final report points out that Connecticut has recovered such assistance, estimated at $9 million (Federal share) over the
period October 1, 1997 to March 31, 2001, but has not refunded this amount to the Federal Government.  Connecticut
begin refunding the Federal share of such recoveries for the quarter ended June 30, 2001. We recommended that the State
return the $9 million, and continue the process of returning the Federal share of collected AFDC recoveries that was instituted
in June 2001.